frr- -•* C. ' ,

i
Supreme Court, U.S.
FILED

AUG 2 7 2021

IN THE

npcir.p OF THE CLERK

SUPREME COURT OF THE UNITED STATES

ChftSm'inA Milled-PETITIONER
(Your Name)

vs.

LHH CORP ft^-RESPONDENT(S)
ON PETITION FOR A WRIT OF CERTIORARI TO

ilAi{ed SVn-\pg; Cmrlof CornealS W::Uv?-¥mvvCvrcu.\V
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

rhfVStTi'nrl tA\\\er
(Your Name)

43"3UU35^xi^ie fWki H ^
(Address)

t JW %5Q\3"

(City, State, Zip Code)
(Phone Number)

RECEIVED
AU6 3 1 2021

4

QUESTIONS PRESENTED

l)Did the appellate court issue a decision that directly conflicted with an earlier decision in a
case with the same issues.

2)Did the appellate court fail to disclose a conflict of interest involving the senior appellate court
judge and the district court judge.And was the right to procedural due process violated .

3)Did the district court err when it failed to comply with the courts requirements to hold a
required hearing to comply with the federal rules of civil procedure

4)Did the district court abuse discretion when it failed to enforce the rules governing motion for
summary judgment on opposing counsel

5)Did the appellate court abuse discretion when it failed to consider the clear abuse of discretion
by the district court falling to comply with the courts requirements

6)Did the district court abuse discretion when it dismissed actions when the defendants were
not prejudiced

LIST OF PARTIES
[ ] All parties appear in the caption of the case on the cover page.
[ x ] All parties do not appear in the caption of the case on the cover page. A list of all parties to
the proceeding in the court whose judgement is the subject of this petition is as follows.

l)GOVERNMENT EMPLOYEES INSURANCE COMPANY
2)LHM CORP.ACJ

4

I

RELATED CASES
none

TABLE OF CONTENTS

1

OPINIONS BELOW,
JURISDICTION
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
STATEMENT OF THE CASE
REASONS FOR GRANTING THE WRIT
CONCLUSION

INDEX TO APPENDENCIES
APPENDIX A DECISION OF THE US COURT OF APPEALS FOR THE NINTH DISTRICT
APPENDIX B DECISION OF THE US DISTRICT COURT FOR ARIZONA
APPENDIX C DENIAL FOR HEARING BY THE US COURT OF APPEALS FOR THE NINTH
DISTRICT

TABLE OF AUTHORITIES CITED

CASES

PAGE NUMBER

PALMER Vs SAVONA

.01

HEARTLAND SURGICAL SPECIALTIES Vs MIDWEST DIV INC

,03

STATE Vs TALLEY

03

ARBOREAL Vs ADIDAS SALOMON AG

,03

TORREY Vs MARION COUNTY SCH BD

03

US VS GRABIE

04

US Vs CARTER

,04

STATUTES AND RULES
FEDERAL RULE OF CIVIL PROCEDURE 56(d)(1)

3,4

LOCAL RULE OF CIVIL PROCEDURE 7.1(h)

02

PROFESSIONAL CODE OF CONDUCT FOR FEDERAL JUDGES
CANNON (2)

05

- IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW

[ ] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix..A__to
the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is

fe_to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
to the petition and is
Appendix
[ ] reported at
5 °r,
[ ] has been designated for publication but is not yet reported; or,
[ 3 is unpublished.
court
The opinion of the_
to the petition and is
appears at Appendix
; or,
[ 3 reported at____
[ ] has been designated for publication but is not yet reported; or,
[ 3 is unpublished.
1.

JURISDICTION

[ ] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was__/ <?/../
------ [ ] No petition for rehearing was timely filed in my case.
A timely petition for rehearing was denied by the United States Court of
, and a copy of the
Appeals on the following date:----------- ----order* denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a wit of certiorari was granted
(date)
(date) on
to and including--------in Application No. —A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix--------[ ] A timely petition for rehearing was thereafter denied on the following date:
____________________ , and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a wit of certiorari was granted
(date) in
(date) on
to and including-----Application No. —A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

1)14TH AMENDMENT OF THE US CONSTITUTION: No person shall be deprived of life liberty
or property without due process of the law
2)DUE PROCESS CLAUSE US CONSTITUTION : The due process clause guarantees an
impartial tribunal

«1 .
1 1.

STATEMENT OF THE CASE

This case arose as the defendant LHMCORP.ACJ sold miller a vehicle that the dealership did
not legally own at the time of the sale after purchasing the 2012 chevy camaro the dealership
was suppose to send the license plates and title in millers name reflecting a lien holder in the
mail after thirty days miller called LHMCORP.ACJ as he still had not received the tags and eric
michael assured miller the tags were in the mail and should arrive any day miller waited patiently
but the tags never arrived and on the 44th day miller calls the dealership again as the temporary
tag that was issued expired the next day and without record of the title miller could not get tags
for the vehicle which he had already paid for anyway and again the dealership assured miller the
tags should arrive by the following day however the following day miller was involved in a car
accident. The other party involved was found to be at fault and was cited for failing to yield right
of way while making a left hand turn The following day miller reported the accident to the
involved parties insurance company and the insurance company stated that an adjuster would
go and inspect the vehicle and would contact miller within 72 hours after 5 days miller calls back
statefarm is no adjuster contacted him miller was informed that he needed to contact his
insurance company GOVERNMENT EMPLOYEES INSURANCE COMPANY as Geico had
taken over the property damage portion of the claim miller protested and state farm refused to
comment or answer any of millers questions so miller contacted Geico and an adjuster for
Geico told miller that the other party involved was being investigated and that he could not
elaborate as to why as it was still an investigation and miller protested stating he did not want his
policy utilized to settle a claim he was not at fault for and Geico adjuster told miller that by law
Geico had the duty to settle a claim in a timely manner therefore by law Geico had to settle the
claim and there was nothing he could do. and after not hearing anything for several weeks miller
contacts Geico who informs miller that a settlement had been agreed to by LHMCORP.ACJ and
themselves and that the dealership was settling for 17960.00 dollars miller protest again as

LHMCORP.ACJ had already been fully compensated for the vehicle through the finance
company but Geico said they had to pay the legal owner of the vehicle and according to the title
that was LHMCORP.ACJ so miller demands proof that geico paid the settlement to the
dealership and demanded a copy of the title. When miller received a copy of the title from Geico
he realized right away the title had been backdated an fraud had occurred as the title shows the
vehicle being transferred into Geico's name on September 4th 2018 which also happens to be
the exact date miller was involved in the car accident relevant to this suit and being how geico
did not become aware of the accident until September 5th 2018 supported by Geico's own
documents. The title had an issue date of October 18th 2018 which means the title was moved
into Geico's name 45 days prior to LHM CORP.ACJ being issued the title not to mention the
vehicle was never moved into Miller's name. the petitioner has a letter from Geico assistant
vice president shane wheeler and in the letter which was in response to a complaint made
against Geico Shane Wheeler states that geico explained to miller several times that
LHMCORP.ACJ could not perfect the title therefore the title was never moved into millers name
and that Geico had to pay the settlement to the legal owner of the vehicle and according to the
title the legal owner was LHMCORP.ACJ . Shane Wheeler goes on to state that Geico
completed an inspection of the vehicle on September 7th 2018 but the title reflects it was moved
into Geico's name three days prior to Geico inspecting the vehicle to know it was a total loss so
Geico new the title was fraudulent and backdated and knew the title was never moved into
millers name but instead of acting in their insureds best interest Geico went against the
insured's best interest and joined LHMCORP.ACJ in there attempts to conceal the'fraud and
theft and in doing so Geico placed a total of 4 separate claims under millers policy two of which
were claimed under millers policy after miller had cancelled the policy with Geico and Geckos
excuse was that Geico had the duty to investigate every claim that it received to see if by law
Geico was liable however Geico knew the policy was cancelled when the so called alleged
claims were allegedly reported to Geico and knew that if there really was a claim reported there

5

-'

however he had nothing left to lose so miller hired an attorney whom took the case on
contingency as he was confident he would prevail at trial with the evidence miller had collected
the attorney filed the complaint with th superior court of arizona however defendant Geico
moved the case to the district court of Arizona and shortly afterwards millers attorney that was
sure of victory files a motion to withdraw as counsel and stated that conflict and non payment
are the reasons he wanted to withdraw as counsel miller protested the motion to withdraw as he
*

felt there was no issue with conflict the attorney stated that because miller emailed him and told
him that he needed to keep miller better informed of the events taking place in the case as miller
found out that the case was moved to district court when he had to go to the superior to get a
certified copy of the complaint and was informed then that the case was moved to district court
which miller felt he done nothing wrong by telling the attorney he would like to be informed on
changes of that caliber that took place in the case the attorney took the case on contingency
and to Miller's knowledge there were no payments of any kind due until the case was settled or
trial was over. However the district court granted the motion to withdraw as counsel and gave
miller thirty days to obtain new counsel or inform the court of how miller wished to proceed miller
filed a motion asking the court for an additional thirty days to obtain counsel as miller could not
find an attorney willing to take payments without a substantial downpayment wich most wanted
10,ooo,oo or better as a down payment just to start the case so miller informed the court that he
would proceed pro se as miller had to get his case herd and hd no other option as he could not
afford that price as he was now unemployed due to the actions of Geico miller filed his midp
responses shortly after the scheduling conference and then served discovery on both
defendants in the form of interrogatories to which both defendants objected to every single
interrogatory stating that it was not in the form of a question and that it would not lead to any
further admissible discovery miller then filed a motion to compel asking the court to order the
defendants to answer the interrogatories that motion to compel was still pending five months
later when the court dismissed actions Miller then filed a motion for summary judgment on

i

December 2nd 2018 making the defendants answers due on january 1st 2019 . On january 1st
2019 miller received an email from defendant Geico asking if miller would agree to a three day
extension of time to answer motion for summary judgment miller agreed to extend time for geico
to answer motion for summary judgement the court finalized the extension and stated only
defendant geico in the courts order to extend time by three days to answer motion for summary
judgement making Geico's answer due january 4th and leaving LHMCORP.ACJ answer due on
. january 1st. Defendant Geico managed to submit its answer to motion for summary judgement
but failed to properly oppose motion for summary judgement as geico failed to by affidavits or by
any other means acceptable to set forth any material facts that could be reasonably disputed
and set forth no facts showing a genuine issue for trial.Defendant LHMCORP.ACJ filed a rule
56(d)request for relief and expedited hearing request asking the court to extend time to answer
motion for summary judgment .However the request was improperly field as it failed to comply
with the rules governing the request and was filed pat the deadline to answer motion for
summary judgement miller filed a reply brief in response to the motion to extend time and raised
the issue of the improper filing and that the request was filed past the deadline to answer motion
for summary judgment .The court chose to ignore those facts and chose not to rule on motion
for summary judgement and motion to compel and the rule 56(d)request for relief and expedited
hearing request. A court ordered teleconference was then scheduled for march 18th 2020 on
march 12th 2020 miller was arrested and held in custody until march 22nd 2020 when the case
was dismissed and miller released in turn miller missed the teleconference and upon his release
miller was unable to get access to the internet due to the covid 19 pandemic the public library
was closed and miller had been using the libraries internet to communicate with opposing
counsel also due to covid 19 pandemic miller was unable to obtain certified proof of the dates
he was incarcerated as the courts were closed to the public so the deadline to reply to the
courts order to show cause already passed miller had no choice but to file his response without
the proof and just as mill expected opposing counsel replied stating they felt miller was being

3

e
untruthful as to why he missed the teleconference and was late filing his response to the order to
show cause the court agreed with opposing counsel and dismissed actions for missing a
teleconference that had no bearing on the outcome of the case whatsoever also the court's
reasoning for dismissing the case was that miller did not file his response to LHMCORP.ACJ
interrogatories on time or at all however miller did file his responses on time as they were filed
march 10th 2020 which is supported by the certificate of service and the date the responses
were filed with the clerk's office miller had to mail the response via regular mail as he did not
have the funds to mail them certified as he usually done and the one time miller mails the
defendants documents via regular mail both defendants claim they did not receive the
documents that miller mailed just before filing the certificate of service at the clerk's office so
miller then calls the local post office and is informed that there is no way to track mail unless it
was certified so so miller then had to make copies of the original and email them which was
explained to opposing counsel and the court again opposing counsel claimed miller was
untruthful in his response because the date postmarked on the envelope did not match the date
of the certificate of service however since miller had to remail the responses via certified mail
the date postmarked on the envelope would not match the date on the certificate of service.
Miller was able to obtain certified proof of the incarceration dates however the case was now at
the appellate level and no new evidence could be presented miller did submit the certified
document and ask the appellate court to consider the fact that miller was truthful in his response
to opposing counsel and the court as to why miller missed the teleconference and was late
answering the courts order to show cause, Miller finds it unjustified that the court dismissed
actions for missing a teleconference that had no bearing on the outcome of the case whatsoever
and did not prejudice the defendants but then took no action against opposing counsel for failing
to answer motion for summary judgement at all and for failing to properly oppose motion for
summary judgement as the court itself abused discretion to the point the court failed to comply
with the courts requirements due to the fact if the court had complied with its requirements the

7
rule-56(d) request for relief would have been denied for failing to comply with the rules governing
the motion and the court would then be obligated to order the defendants to answer motion for
summary judgement which the defendants could not do as there were no genuine issues for trial
the actions were shown and the evidence supported the claims of miller against both defendants
whose own documents proved the actions against the defendants and the defendants could not
dispute their own documents that the defendants signed and dated and created themselves this
proved and supported by the fact neither defendant properly opposed motion for summary
judgement this supported by the fact LHMCORP.ACJ failed to answer motion for summary
judgement at all and Geico used its own pleadings and denials and failed to submit sufficient
affidavits or any other acceptable means of evidence that set forth any specific fact showing a
genuine issue for trial.

Miller filed an appeal and the appeal was granted with two certified issues on appeal,
those being ruling on motion for summary judgement and ruling on motion to compel. Being how
there was no ruling on either motion should raise an issue however miller raised the issue of the
district court failing to comply with the courts requirements by failing to hold a required hearing
and failing to enforce the rules governing motions on opposing counsel in his opening brief to the
appellate court and reiterated the issue many times. However the appellate court affirmed the
district court's ruling when case law suggested otherwise and the appellate court issued a
decision that directly conflicted with an earlier decision by the same appellate court. The US
COURT OF APPEALS for the ninth district reviews two cases besides millers where the district
court failed to comply with the courts requirements and vacated and remanded both of those
cases the US COURT OF APPEALS for the ninth district reviewed millers case in which the
district court failed to comply with the courts requirements and affirmed the district court's ruling
which also conflicts with both cases that were reviewed by the same appellate court. Miller also
learned of a conflict of interest after he filed the petition for panel rehearing that being that the

10

8
district court judge John Tuschi worked under senior appellate court judge Canby as his law
clerk before becoming a district court judge for the district of arizona. Phoenix arizona being
where judge canby has his chambers as well .Miller feels that the former and or current
relationship may be the reason the appellate court ignored the fact the district court failed to
comply with the courts requirements in many ways.and failed to consider that the district court
shows favoritism to the defendants as the rules of the court were not enforced on opposing
counsel. Judge Canby failed to disclose the potential conflict of interest which makes the
appellate court's decision suspect at the very least and Miller feels the conflict of interest could
have persuaded the decision of the appellate court. Miller is now at his last chance to obtain
justice that has been denied by abuse of discretion and a technicality as the district court
prejudice miller tremendously by favoring opposing counsel and failing to enforce the rules of the
court on opposing counsel but was quick and decisive when it had the opportunity to enforce the
rules on miller the district court was one sided and had already decided the case before hearing
the case as if the case were to be decided on the merits miller would definitely succeed which
any person of sound mind could look at the evidence and based on that evidence know a jury
could not decide against miller the evidence is clear and convincing and neither defendant
submitted any evidence to suggest otherwise as there is no evidence as the documents miller
submitted into evidence are documents that employees of both the defendants made and
generated most of which are signed by employees of both companies therefore the defendants
can not dispute their own documents that were obtained through the defendants. Miller prays
that the supreme court will take this opertunity to answer the qustion of abuse of discrection by
both the appellate court and the district court the question of conflict of intrest and the question of
conflicting decisions by the same appellate court the question of bias and discrimination against
miller and grant the petition.

i*

y

-V

REASONS TO GRANT PETITION

The US COURT OF APPEALS for the ninth district issued a decision in this case that conflicts
with a case very similar with the same issues see PALMER Vs SAVONA. PALMERS case was
dismissed for failure to prosecute and failure to comply with a court order PALMES case
originated out of the district of Arizona and was reviewed by the US COURT OF APPEALS for
the ninth district on appeal the court cited here the district court did abuse discretion as the
defendants were not prejudiced. Petitioners case originated out of the district of Arizona and
was dismissed for failure to prosecute and failure to comply with court order and was reviewed
by the US COURT OF APPEALS for the ninth district the same court that vacated and
remanded in PALMER Vs SAVONA however the appellate court affirmed the district court’s
ruling even though the defendants were not prejudiced in any way as the petitioner missed a
teleconference that had no bearing on the outcome of the case whatsoever weather the
petitioner was present or not the case would not have changed at all as the teleconference was
to discuss payment options for preparing for a deposition therefore defendants were not
prejudiced in this case either so the decision of the appellate court was erroneous and directly
conflicts with an earlier decision of the same court on a case with the same issues. The
supreme court has the opportunity to issue a decision and avoid unnecessary confusion and
uncertainty that conflicting decisions would cause in any future cases that may arise that are
similar.

The US COURT OF APPEALS for the ninth district violated the petitioners due process rights as
the senior appellate court judge .judge CANBY failed to disclose a conflict of interest and chose
to participate with the decision in petitioners case when judge CANBY was well aware that a
potential conflict of interest could arise out of him choosing to participate with the panel as the

I3

district court presiding judge JOHN TUSCHI was judge CANBYS former law clerk before
becoming a district court judge in phoenix Arizona where judge Cabby currently has his
chambers so the fact that the former and or current relationship of judge CANBY and JUDGE
Tuschi and that judge Canby chose to participate in the panel makes the decision in petitioners
case suspect and petitioner feels the conflict of interest is why the appellate court chose to
ignore or overlook material facts of the case such as the district court failing to comply with the
courts requirements which was raised in petitioner's opening brief and reiterated throughout the
brief and prejudice the petitioner tremendously. Here the supreme court has the opportunity to
decide questions of constitutional rights violations and the question of conflict of interest. The
question of conflict of interest left unaddressed would suggest that the decision maker could
advance his own interest at the expense of the party negatively affected by the abuse of
discretion and rights violations.

The district court failed to comply with the court's requirements of the court violating the
petitioners due process rights . The petitioner filed a motion for summary judgement on
December 2nd 2019 making the defendants answers due on January 1st 2020 Defendant
GEICO emailed the petitioner on january 1st 2020 and ask if he would agree to a three day
extension for GEICO to answer motion for summary judgement the petitioner agreed and the
court ordered the extension for defendant Geico making GEICOS answer due january 4th 2020
and leaving LHM CORP.ACJ answer due on january 1st 2020 on January 4th 2020 defendant
LHM CORP.ACJ filed a rule 56(d) request for relief and expedited hearing request asking the
court to extend time to answer motion for summary judgement .However the request was filed
three days past the deadline to answer motion for summary judgement moreover the rule 56(d)
request for relief and expedited hearing request failed to comply with the rules governing the
motion . RUIe 56(d)states that the request must be accompanied by a good faith consultation
certificate complying with local rule of civil procedure 7.1(h).The court must Rold an expedited-

13

hearing within seven days of receiving a rule 56(d) request for relief and expedited hearing
request and if the courts calendar does not allow for a hearing within 7 days the court must
schedule a hearing at the courts earliest available dateA rule 56 (d) request for relief and
expedited hearing request itself does. Not extend time to answer motion for summary
judgement and that failing to properly oppose a motion when a summary judgement is made
and supported within this rule that a responding party may not rely on its own pleadings and
denials but must by affidavits or as otherwise provided within this rule set forth material facts
that can reasonably be disputed showing a genuine issue for tried and if a party so does not
respond then summary judgement be entered against that party if the movant is entitled to
judgement by a matter of law .So not only was the request filed past the deadline it failed to
comply with the rules governing the request as LHM CORP.ACJ failed to submit a good faith
consultation certificate with the request. LHM CORP.ACJ rule 56(d) request for relief and
expedited hearing request should have been denied and LHM CORP.ACJ been ordered to
answer motion for summary judgement by a date certain being how the deadline to answer
motions for summary judgment had already lapsed. See HEARTLAND SURGICAL
SPECIALTIES LLC Vs MIDWEST DIVISION INC. Here the court concluded citing the
appropriate action for a court in response to a motion not in compliance with the rules is to deny
that motion . See STATE Vs TALLEY . Here the court specifically denied the motion to
suppress because the motion did not comply with its statutes (.See ARBOREAL Vs ADIDAS
SALOMON AG)Here the plaintiff objects due to the defendants failure to comply with local rule
of civil procedure 7.1 which requires the movant to make a good fauth effort to resolve the issue
before filing a motion . The court holds that the court must deny any motion that fails to comply
with certification of this rule. See TORREY Vs MARION COUNTY SCH BD. tThe court holds
that before filing any motion in a civil case the movant shall confer with opposing counsel and
the motion shall reflect that such a conference took place and the outcome , the court routinely
denies motions that fail to comply with this rule. According to case law the request snouiaTiave

N

Comply with the courts requirements and vacated and remanded. Prior cases reviewed by the
same appellate court which raised the same issues that petitioner raised including the district
court failed to comply with the courts requirements were vacated and remanded .Here the
district court failed to comply with the courts requirements and the appellate court affirmed the
district court's ruling .this also causing confusion and uncertainty as the appellate court again
issued conflicting decisions on the same issues in previous cases one decision coming from the
same appellate court that reviewed petitioners case. (US VS CARTER).

The district court violated the PROFESSIONAL CODE OF CONDUCT for federal judges as
cannon two states, A judge should avoid impropriety and the appearance of impropriety in all
activities .The district court judge showed bias toward the petitioner and favoritism to the
defendants as the judge failed to rule on any motion filed by petitioner or that was favorable to
petitioner this supported by the fact the motion for summary judgement motion to compel and
rule 56(d) request for relief and expedited hearing request were still pending 5 months when the
court ordered actions dismissed but was quick and decisive to rule on defendants motion to
dismiss as the court ruled on motion to dismiss in just weeks. The court also showed partiality to
defendants as the court failed to enforce the rules governing the motion for summary judgment
and rule 56(d) request for relief and expedited hearing request on opposing counsel and failed
itself to comply with the courts requirements to hold a required hearing due to the fact petitioner
would have successively opposed the request for relief and expedited hearing request and then
the court would have been forced to order LHM CORP.ACJ to answer motion for summary
judgement which the defendant could not do this supported by the fact LHM CORP.ACJ failed to
answer motion for summary judgement that was pending five months
If the district court would have complied with the courts requirements and enforced the rules
governing motions on opposing counsel this case would have ended entirely different as if the
case were decided by a jury based on the merits of the case a jury could not reasonablyclecide

14

against petitioner this supported with the evidence and the fact neither defendant could set forth
any material fact that could be reasonably disputed and did not show a genuine issue for trial
according to rule 56(d) summary judgement should have been granted against both defendants
and the petitioner feels this being the reason the district court chose not to rule on motion for
summary judgement and failed to enforce the rules of motion for summary judgment.

IN the memorandum of the appellate court the court states that the petitioner made
misrepresentations regarding discovery . That statement untrue and unsupported as the
petitioner never misrepresented any discovery everything the petitioner submitted as evidence
and in discovery is true and supported with evidence that being the reason neither defendant
could properly oppose motion for summary judgment as everything submitted by the petitioner
was set forth and supported with documents that were obtained created and signed by
employees of both defendants the appellate court also has abused discretion in this case
several times by failing to address the issue of the district court failing to comply with the courts
requirements by failing to disclose a clear conflict of interest and by the senior judge on the
panel choosing to participate in the decision making when he was well aware that he had
personal interest in the decision due to the relationship between himself and the district court
judge John Tuschi as the district court judges decision was being reviewed on appeal and being
how judge Canby chose to sit on the panel is suspect in itself judge Canby should have never
chose to sit on the panel that was reviewing the decision of judge Canby's former law clerk.
This being the reason the district court failing to comply with the courts requirements was not
addressed in the memorandum nor was the fact that motion for summary judgement should
have been entered against both parties long before the court dismissed actions as LHM
CORP.ACJ failed to answer motion for summary judgement at all and the rule 56(d) request for
relief and expedited hearing request itself did not extend time to answer motion for summary
judgement. The district court stated in its memorandum that the court repeatedly warned miller

n

that his case could be dismissed however that statement also unsupported and untrue as no
where on the record will the court find where the district court warned miller even one time let
alone repeatedly and miller did explain and prove that the reason he could not communicate
with opposing counsel in a timely manner was beyond the control of the petitioner as he was
incarcerated and could not possibly respond within 24 hours as miller was arrested on march
12th and held in custody until march 22nd when the case was dismissed as miller never should
have been arrested however the court as usual sided with opposing counsel when opposing
counsel stated they felt miller was untrue in his response to order to show cause as the district
court favored opposing counsel throughout this entire case and the appellate court jumped
aboard when judge Canby chose to sit on the panel. The petitioner was not able to obtain
certified proof that he was incarcerated on the above dates upon his release due to the global
pandemic covid 19 having the courts closed to the public and miller had to make an
appointment two months out. miller did obtain certified proof of the incarceration dates and
submitted the document and ask the appellate court to consider under an uncertified issue that
the petitioner was truthful in his answer to show cause and that good cause did exist and
missing the teleconference and failing to communicate with opposing counsel in a timely
manner was unforeseen and beyond the control of the petitioner. In reading the memorandum
the appellate court must have ignored that important issue of the case as well. The petitioner
would like to see on the record where the issue of misrepresented discovery became about and
also see on the record where the district court warned the petitioner repeatedly that his case
could be dismissed .

The petitioner prays for relief and for petition to be granted .

?1

RESPECTFULLY SUBMITTED

IT-

